<html>
<title> - AGRICULTURAL RESEARCH AND 2018 FARM BILL IMPLEMENTATION</title>
<body><pre>[Senate Hearing 116-192]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-192
 
                       AGRICULTURAL RESEARCH AND
                     2018 FARM BILL IMPLEMENTATION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2019

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
           
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           


       Available via the World Wide Web: http://www.govinfo.gov/
       
       
       
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
39-842 PDF             WASHINGTON : 2020               
       
       
       
       
       
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CINDY HYDE-SMITH, Mississippi        MICHAEL BENNET, Colorado
MIKE BRAUN, Indiana                  KIRSTEN GILLIBRAND, New York
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
CHARLES GRASSLEY, Iowa               TINA SMITH, Minnesota
JOHN THUNE, South Dakota             RICHARD DURBIN, Illinois
DEB FISCHER, Nebraska

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
               
                            C O N T E N T S

                              ----------                              

                        Thursday, July 18, 2019

                                                                   Page

Hearing:

Agricultural Research and 2018 Farm Bill Implementation..........     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                                WITNESS

Hutchins, Scott, Ph.D., Deputy Under Secretary, Research, 
  Education, and Economics, U.S. Department of Agriculture, 
  Washington, D.C................................................     5
                              ----------                              

                                APPENDIX

Prepared Statements:
    Hutchins, Scott, Ph.D........................................    26

Document(s) Submitted for the Record:
Stabenow, Hon. Debbie
    Agricultural and Applied Economics Association, prepared 
      statement for the Record...................................    36
    American Statistical Association, prepared statement for the 
      Record.....................................................    38
    Catherine E. Woteki, Ph.D., prepared statement for the Record   102
    Gail A. Buchanan, prepared statement for the Record..........   105
    Jeffrey J. Steiner, Ph.D., prepared statement for the Record.   128
    Katherine Smith Evans, prepared statement for the Record.....   131
    Sonny Ramaswamy, prepared statement for the Record...........   133
    Susan Offutt, prepared statement for the Record..............   136
    Union of Concerned Scientists, prepared statement for the 
      Record.....................................................   138

Question and Answer:
Hutchins, Scott, Ph.D.:
    Written response to questions from Hon. Pat Roberts..........   144
    Written response to questions from Hon. Debbie Stabenow......   148
    Written response to questions from Hon. Charles E. Grassley..   159
    Written response to questions from Hon. John Thune...........   159
    Written response to questions from Hon. Patrick Leahy........   164
    Written response to questions from Hon. Sherrod Brown........   167
    Written response to questions from Hon. Michael Bennet.......   171
    Written response to questions from Hon. Tina Smith...........   172
    Written response to questions from Hon. Richard Durbin.......   175


        AGRICULTURAL RESEARCH AND 2018 FARM BILL IMPLEMENTATION

                              ----------                              


                        THURSDAY, JULY 18, 2019

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:28 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Roberts, Boozman, Hoeven, Ernst, Hyde-Smith, 
Braun, Perdue, Grassley, Thune, Fischer, Stabenow, Leahy, 
Brown, Klobuchar, Casey, and Smith.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    Over two years ago, we kicked off the 2018 Farm Bill, and 
that whole process by holding a hearing at Kansas State 
University, our land grant institution in Manhattan, Kansas.
    A few months later, we held a hearing in this room, where 
we heard from the United States Department of Agriculture 
officials, representatives from research institutions, and 
agricultural producers. We heard about the critical role that 
agricultural research has played throughout our Country's 
history. We also heard about the research priorities for the 
2018 Farm Bill.
    The needs are certainly great. Every day our producers 
encounter extreme and unpredictable weather, pests, and 
disease, just to name a few. Researchers and institutions 
tasked with addressing these challenges are asked to do so with 
minimal Federal resources and an aging infrastructure.
    The United States produces the safest, most affordable, and 
abundant food and fiber in the world, ever.
    In crafting the Agriculture Improvement Act of 2018, the 
distinguished Ranking Member Deborah Stabenow and myself along 
with members of this Committee recognized that we had to 
continue to build on the strong history of agricultural 
research in the United States.
    With the enactment of the bill, the primary Department of 
Agriculture Research, Education, and Extension authorities were 
reauthorized, including the Agriculture Research Service and 
the National Institute of Food and Agriculture.
    Land-Grant University formula funds, including the Hatch 
Act, Smith-Lever, McIntire-Stennis, and Evans-Allen were 
extended, and competitive grant programs were included to 
support research facilities and equipment improvements.
    Provisions were included to bring equity to 1890 and 1994 
institutions. The Farm and Ranch Stress Assistance Network was 
reauthorized and strengthened to support the mental health of 
farmers and individuals facing highly stressful working 
conditions.
    New authorities were established, including the Agriculture 
Advanced Research and Development Authority, AGARDA. It was 
modeled after authorities at other agencies, including DARPA 
and BARDA, which allows the USDA to carry out advanced research 
and development of qualified products, technologies, and 
research tools.
    During the Farm Bill process, budgets were tight, and many 
difficult choices were made in an effort to negotiate a bill 
that provides certainty and predictability.
    Notably, the Research title was one of the few in the Farm 
Bill to receive an increase in mandatory funding over the life 
of the bill. In fact, it included nearly $800 million in 
mandatory funding over five years for research programs. That 
is a big investment, a needed investment.
    I am very proud of the bipartisan effort to support 
agricultural research and the Agriculture Improvement Act of 
2018, and I know the Ranking Member shares that pride.
    This morning I look forward to hearing an update from the 
Department about the implementation of these updated and new 
provisions.
    I am also interested to hear about the status of other 
efforts related to Research, Education, and Economics, the REE 
mission area, including the relocation of the Economic Research 
Service, ERS, and NIFA to the Kansas City Region.
    My home State of Kansas has a strong history of 
agricultural research, including Kansas State University, the 
National Bio and Agro-Defense Facility currently under 
construction, and the broader Animal Health Corridor, 
stretching from Columbia, Missouri, to Kansas City on the way 
out to Manhattan. The relocation of ERS and NIFA to this region 
would allow these agencies to access the many existing 
resources and benefits of the region.
    Research and analysis are essential to the work that the 
Department does for producers and for the agricultural economy. 
With any significant structural change, it is vital that we 
ensure the research mission remains intact and is supported and 
strengthened for this Nation's growers. For instance, we need 
to ensure that the Department continues to produce quality 
analytic reports, without delay, during this transition.
    From the onset of the Farm Bill process, agricultural 
research was something every member could unite behind and 
support. This is true regardless of what State each member 
hails from or what crops are grown there.
    This bipartisan, bicameral support for agricultural 
research will continue and is key as we seek to keep working 
together to strengthen U.S. agriculture.
    I now recognize the distinguished Ranking Member, Senator 
Stabenow, for her remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Thank you very much, Mr. Chairman, and 
thank you very much for holding what is a very important 
hearing.
    Before giving my opening remarks, I want to put into the 
record, with your agreement, testimony from a number of groups 
and individuals regarding the relocations of ERS and NIFA. This 
includes statements from organizations representing 
researchers, agricultural economists, and former USDA 
researchers from both Republican and Democratic 
administrations. So I would ask submission.
    Chairman Roberts. So ordered.

    [The following information can be found on pages 36-143 in 
the appendix.]

    Senator Stabenow. Thank you very much.
    Thank you very much for the hearing, as I indicated, and I 
share the Chairman's commitment to what has been really a 
source of pride for us in terms of support for not only 
traditional agriculture but the new foundation that we have now 
had in place for two Farm Bills that we worked together on.
    Dr. Hutchins, welcome back, and thank you for being here. 
Agricultural research has always been the heart of the 
Department of Agriculture since its beginning, and you have a 
very important responsibility at a very challenging time, in my 
judgment.
    In 1862, President Lincoln created the USDA with the 
mission to procure, propagate, and distribute agricultural 
knowledge. That strong foundation created our modern system of 
land-grant universities, including, Mr. Chairman, our alma 
maters of Michigan State and Kansas State.
    It has also led to breakthroughs that have made our farmers 
more productive, more profitable, and more resilient.
    The development of the first hybrid corn seeds have 
resulted in better yields in many types of crops. Extension 
specialists helped farmers utilize crop rotation to replenish 
soil after the Dust Bowl.
    USDA studies have made wheat more resistant to drought and 
disease, developed more nutritious rice varieties, and improved 
vaccines to prevent foot and mouth disease.
    Even off the farm, a wide variety of interesting research, 
important research. Ag research has enhanced the life for all 
Americans, improving the disposable diaper, making the U.S. 
military uniforms resistant to mosquitos, and developing better 
turf for NFL fields so that my Detroit Lions can tear up the 
Chairman's Kansas City Chiefs without tearing up the grass.
    Even with these great innovations----
    It is my opening statement, Mr. Chairman.
    [Laughter.]
    Senator Stabenow. Even with these great innovations, we 
consistently hear we need more research and a broad array of 
research, not less. That is why the bipartisan 2018 Farm Bill 
increased funding for USDA research efforts in animal disease, 
specialty crops, urban agriculture, organics, and expanded 
public-private partnerships in the Foundation for Food and 
Agriculture Research.
    Unfortunately, the bipartisan commitment to agricultural 
research, which started over 150 years ago, is now at risk. I 
am deeply concerned that this administration is undermining the 
foundation of the USDA's scientific research mission.
    The administration's haphazard decision to relocate two 
critically important research institutions--the Economic 
Research Service and the National Institute of Food and 
Agriculture--will affect real people who rely on the USDA 
services and hamper its capacity to support farmers, families, 
and rural communities for years to come.
    And for what? For what? It is still unclear to me what 
problem the USDA is trying to solve with this move, but we can 
see the problems and the risks related to this move.
    The administration is requiring employees to uproot their 
families and move by September 30th, even though they have not 
secured a permanent office space. There are questions about 
their authority and budget for the relocation. According to the 
USDA, at least 63 percent of employees directed to move will 
leave instead of relocating, 63 percent or more. That is on top 
of extremely high current vacancy rates at these agencies.
    Rebuilding an entire workforce will take time. In the 
interim, these agencies will not have the capacity to do their 
important work.
    The USDA will also lose irreplaceable expertise. For 
example, the USDA is losing Vince Crawley, an army veteran 
originally from Indiana, whose work publishing reports is 
critical to expanding export markets, supporting transparent 
commodity prices, and strengthening rural economies.
    The USDA is losing Jeffrey Steiner, one of the Nation's 
leading experts on hemp research, which we are doing a hearing 
on this as we move forward, the leading expert on hemp research 
whose knowledge would have helped develop new markets for hemp, 
which was legalized in the Farm Bill.
    The USDA is losing Tim Steinberg, whose economic research 
supports rural manufacturing and business innovation. His 
critical work on the competitiveness of rural America will shut 
down on September 30 because no one else in the Department is 
qualified to work with this confidential, highly sensitive 
data.
    There are hundreds more stories like these that we could 
share, the knowledge that we are throwing away and the 
expertise we are throwing away with this move.
    It is no wonder that leading scientists, land-grant 
universities, former USDA officials from both sides of the 
aisle stand in staunch opposition to this move.
    Now, the administration could keep these experts from 
leaving by giving employees the flexibility to continue their 
important work here until at least a permanent location is 
ready. The administration could extend the deadline for 
researchers to decide whether they will leave their jobs or 
relocate themselves and their families to a new city over a 
thousand miles away.
    Instead, the administration is forcing out its employees 
with rushed, politically calculated ultimatums designed to 
derail important agricultural research, and I do not say that 
lightly.
    This relocation fits a troubling pattern of this 
administration undermining the important work of the USDA, 
including critical research our farmers need to address the 
impacts of the severe weather caused by the changing climate.
    Congress has resoundingly rejected multiple budget 
proposals that would have cut USDA economic research by 50 
percent, rejected, both sides of the aisle. I am concerned that 
this so-called relocation is an attempt to go around Congress 
and to carry out the steep reductions in capacity and research, 
anyway.
    It is clear to me that this is not a relocation; it is a 
demolition. It is a thinly veiled, ideological attempt to drive 
away key USDA employees and bypass the intent of Congress.
    I urge the administration to stop this and salvage what 
valuable expertise is left. This decision does far more than 
hurt USDA employees. If this chaotic plan is not stopped, our 
farmers, our families, and rural communities will be the ones 
that suffer in the long run.
    Thank you, Mr. Chairman.
    Chairman Roberts. I will remind members of the Committee, 
time is very limited. We have votes at 11:30. That is most 
unfortunate, given the issues that are concerned.
    I would like to welcome our witness before the Committee 
this morning. Dr. Scott Hutchins is the Deputy Under Secretary 
for Research, Education, and Economics, REE, at the Department 
of Agriculture. Prior to working at the Department, Dr. 
Hutchins held a variety of roles in the Agricultural Research 
and Development, most recently as the Global Research 
Development Leader of Corteva Agriscience, the agricultural 
division of Dow-DuPont.
    He received his bachelor's degree in entomology from Auburn 
University, a master's degree from Mississippi State 
University, and his doctorate from Iowa State University.
    Notably, Dr. Hutchins last testified in this room in 
November after he was nominated to serve as the Under Secretary 
for Research, Education, and Economics, and his nomination was 
reported out of this Committee on a voice vote for a second 
time on May 14th.
    Welcome back to the Committee, Dr. Hutchins. I look forward 
to your testimony.

  STATEMENT OF SCOTT HUTCHINS, Ph.D., DEPUTY UNDER SECRETARY, 
    RESEARCH, EDUCATION, AND ECONOMICS, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Dr. Hutchins. Thank you. Good morning, Chairman Roberts, 
Ranking Member Stabenow, and members of the Committee. Thank 
you for the opportunity to discuss agricultural research and 
implementation of related provisions in the 2018 Farm Bill.
    The Research, Education, and Economics Mission Area at USDA 
is an incredible team and powerful force for the good of U.S. 
agriculture.
    The REE Mission Area is comprised of four agencies: the 
Agricultural Research Service, the Economic Research Service, 
the National Agricultural Statistics Service, and the National 
Institute of Food and Agriculture.
    I will offer a few updates on each followed by some 
comments on some current topics.
    ARS, or the Agricultural Research Service, under the 
leadership of Dr. Jacobs-Young, is the primary intramural 
research agency for USDA. ARS has as long track record of 
scientific breakthroughs that benefit U.S. producers, 
consumers, and ARS is also one of the two USDA agencies, along 
with APHIS, responsible for the stand-up and management of the 
National Bio and Agro-Defense Facility, NBAF, in Kansas.
    Just recently, with Chairman Roberts joining, I was pleased 
to cosign with Under Secretary Ibach a memorandum of agreement 
with the Department of Homeland Security to enable the transfer 
of responsibilities to USDA.
    ERS, or the Economic Research Service, currently led by 
Acting Administrator Leibtag, continues to be a trusted source 
of high-quality and objective economic research to inform and 
enhance public and private decision-making. Recent ERS reports 
have highlighted trends in sales and development of veterinary 
antibiotics, a slowing of retail food price inflation, food 
loss amounts at the farm level, and additionally, ERS has 
provided studies showing the impact that agriculture has on the 
larger economy. They have modeled shifts on the impact of 
climate on farm productivity and balance of public versus 
private R&D sector investment.
    NASS, or the National Agricultural Statistics Service, led 
by Administrator Hamer, provides timely, accurate, and useful 
statistics and service to U.S. agriculture. They conduct 
hundreds of surveys each year and produce reports for the 
entire agricultural sector, including production and supplies 
of food and fiber, prices paid and received by farmers, farm 
labor and wages, farm finances, chemical use, and changes in 
the demographics of U.S. agriculture.
    Earlier this year, we were proud to have the opportunity to 
provide NASS's largest and most visible report, the Census of 
Agriculture.
    NIFA, or the National Institute of Food and Agriculture, 
under the leadership of Dr. Angle, is USDA's extramural 
research agency providing funding and leadership to support 
research, education, and extension programs that address 
national agricultural priorities and transformative practices. 
NIFA primarily does this through competitive and formula 
grants.
    An additional aspect of NIFA is the support workforce 
development in agriculture, including the 4-H organization. In 
2018, NIFA-funded programs supported over 104,000 students 
through recruitment, retention, and curriculum development and 
faculty development. Through 4-H, NIFA supports a new 
generation of community leaders.
    The Office of the Chief Scientist serves to coordinate all 
four agencies on certain topics and also supports all of USDA 
via the Science Council. The council facilitates cross-
departmental scientific coordination and includes the important 
function and oversight of scientific integrity.
    With regard to the 2018 Farm Bill implementation, first let 
me congratulate this Committee and particularly Chairman 
Roberts and Ranking Member Stabenow on the timely and positive 
bill in support of U.S. agriculture.
    REE held a special listening session on March 21st of this 
year to begin the process of Farm Bill implementation with all 
the REE leadership present. While each of the four REE agencies 
and the Office of the Chief Scientist are included in the Farm 
Bill, the vast majority of the provisions pertained to NIFA, 
and I am pleased to report that, thus far, NIFA has addressed 
the key expectations of the legislation that are funded. We are 
aggressively implementing it across the Department.
    With regard to relocating the ERS and NIFA agencies, 
Secretary Perdue announced in June that ERS and NIFA will 
relocate to the Kansas City region after a long deliberative 
process. The Kansas City region is a vibrant urban center in 
the Heartland, a growing agricultural hub, and a home to 
considerable Federal workforce already. Long-term savings, the 
ability to attract top agricultural talent and proximity to 
numerous agricultural constituents will enhance the mission of 
these agencies in the long term.
    USDA is fully committed to seeing NIFA and ERS thrive as 
mission-critical agencies, and in fact, we will welcome six 
brand-new ERS employees to Kansas City this coming Monday.
    In conclusion, thank you for the opportunity to be with you 
today. I respect the role this important Committee plays in the 
success of the REE mission and look forward to answering your 
questions.
    Thank you also for the unwavering bipartisan support that 
this Committee has always shown for the critical missions of 
research, education, and economics. On behalf of U.S. 
agriculture, it is an honor to support the USDA mission to do 
right and feed everyone.
    I am happy to answer your questions.

    [The prepared statement of Dr. Hutchins can be found on 
page 26 in the appendix.]

    Chairman Roberts. Thank you, Doctor.
    I want to remind everybody that has just come to the 
Committee, time is very limited today. We have votes at 11:30. 
We will let the floor know that if we are here still in session 
that we will wait for maybe 14 minutes to expire or something 
like that, but I am going to enforce the 5-minute rule. I think 
I have kept mine under five.
    [Laughter.]
    Chairman Roberts. So I just want to encourage people to be 
brief if they possibly can. I know there is a lot of concern 
with regards to the relocation issue.
    I thank the distinguished Member for asking unanimous 
support for questions to be submitted for the record on many of 
the concerns people have. I know that the Department will 
respond. I will make sure of that, along with the distinguished 
Ranking Member.
    Doctor, the research title, the 2018 Farm Bill, was truly a 
bipartisan collaboration for members of this Committee and 
others throughout the Congress. One example of this 
collaboration is the new Agriculture Advanced Research and 
Development Authority, or AGARDA.
    The Ranking Member and I worked closely on this authority 
to provide the Department with a new set of tools to promote 
and ensure innovation with private entities for research, and 
development solutions.
    Dr. Hutchins, how does the USDA envision utilizing this new 
authority to complement your mission to advance research and 
develop the tools necessary to protect our U.S. food supply?
    Mr. Hutchins. Thank you for the question, Mr. Chairman.
    AGARDA presents a truly unique opportunity in agricultural 
science. Much like the DARPA and the ARPA-E in other 
Departments, this proposed program provides the ability to 
partner in unique ways with private entities to allow USDA and 
Ag Research to stay on the cutting edge with technology.
    We would envision within USDA and REE, AGARDA operating 
similarly in these other agencies, and once we stand it up, we 
would love to collaborate with those agencies and understand 
how best practices could be incorporated.
    I would be particularly excited to see what we would be 
able to do if the potential collaborations that would transpire 
between the private sector and the public sector would turn 
out, as an example. NBAF would be an excellent role model for 
that.
    Unfortunately, at this point in time, AGARDA was not funded 
in the fiscal year appropriations, but we stand ready and 
excited to stand this up and to participate and bring it to 
life as you have envisioned it.
    Might I add, on a broader point, I believe the U.S. needs a 
more comprehensive ag innovation strategy, one that 
incorporates not just the capabilities and the contributions 
that can come from the public sector but also one that can come 
from the private sector so that we can benefit from a total 
integration of efforts to stay ahead of the challenges that we 
face, including climate change.
    Issues along these lines have demonstrated that the private 
sector is funding, through recent ERS reports, three times what 
the public sector is funding. So it becomes important for U.S. 
agriculture truly to synergize and partner in this way to make 
sure that we get the most bang for the buck, if you will, from 
our investments that we are enabled to have.
    Chairman Roberts. Doctor, the National Institute of Food 
and Agriculture, NIFA, and the Economic Research Service, ERS, 
provide valuable research and data that producers and industry 
stakeholders rely on. The external Research Extension and 
Education programs operated through NIFA supports producers and 
consumers in communities all across our Country. ERS provides 
valuable data, research and reports on several items such as 
U.S. farm income, not where we want that to be, commodity cost 
and returns, and monthly commodity outlook reports, which we 
are waiting on the last report here in just a few short days.
    Could you assure me, Dr. Hutchins, that these critical 
reports will not be delayed within the transition occurring 
with the ERS?
    Mr. Hutchins. Thank you, Mr. Chairman.
    Yes, I can assure you, and more so, I assure you that we 
will seek more opportunity to expand the research and the 
influence of ERS through the use of considerable cost savings 
from this move. That is our goal. Our intention is to make this 
and our desire to make this, and the recognition is to make 
this an opportunity for us to allow this agency to grow and to 
be sustainable in the long term. It is a very important aspect.
    Now, if I could add, with regard to my role with this 
project and the role that we are currently in, when I was with 
this Committee last time, I was asked about these topics, and I 
indicated to you that I believe that the goals that the 
Secretary had for this were the right goals. I still believe 
that.
    As we move forward, there are really two key primary and 
focus areas that I am aligned on. One is to support our 
employees. This is a difficult move. Any move is difficult. I 
have done these moves in my professional life over time. They 
are very, very difficult, and so what I have realized through 
those experiences is that we need to support our employees in a 
number of ways. That includes continuous communication. It 
includes being as decisive as we can on various aspects of 
things, and it means supporting them in every way possible. 
That means the employees that are choosing to relocate as well 
as the employees who are choosing not to relocate.
    The second aspect of this, which is more to your point, I 
think, is to ensure the continuity of mission, and I have given 
my assurances to the Secretary and all who have asked that we 
will continue this mission. We will have a difficult time. As I 
have said to others, I am not trying to sugarcoat the 
difficulty that this will post, but we are actively working 
with the Office of the Secretary and with all the agencies that 
can contribute to ensure continuity of mission.
    ERS' economists are rock stars, and I have described them 
as that. The work that they do is tremendous, and so we have 
every intention--and I do give you my assurance--that we will 
maintain that capability.
    Chairman Roberts. Senator Stabenow?
    Senator Stabenow. Thank you, Mr. Chairman, and again, thank 
you, Dr. Hutchins.
    I realize that you were not here at the beginning when this 
decision was made, but it is in your lap now. You are in 
charge, and it is incredibly important what decisions are made 
and how they are made.
    I agreed with you that the mission is the focus in making 
sure we are not losing the important service and mission 
provided to farmers and families in rural communities.
    There is a huge problem according to the USDA. Sixty-three 
percent of the employees directed to move will leave instead of 
moving, and USDA will fire employees that do not relocate by 
September 30th.
    So far, ongoing hiring efforts have resulted in four 
employees, four employees being ready to start in Kansas City 
next week, four.
    Furthermore, the Government Services Agency says the 
permanent office space for these agencies will not likely be 
ready for a year. So my question is, What is the rush? Why is 
USDA so fixated on moving or firing everybody by September 
30th?
    Mr. Hutchins. Thank you, Senator, for the question.
    I would not describe it as a rush. Through the 
communication process that we have had with the employees from 
the earliest days--and I have personally participated in 
monthly and sometimes even weekly all-hands meetings--at 
present time, we are communicating weekly through newsletters 
and through communication mechanisms.
    We are working constructively as best we can through the 
process with the unions that represent both aspects of it.
    What the employees have told us loud and clear throughout 
this process, which has been a long process--I mean, it was 
announced last August, and now it is July--is we just want to 
know when and where. Give us a date, and give us a location.
    So we went through a very long deliberative process. It was 
very much open in communication with your staffs to identify 
that, and we are staying true to that plan.
    We have provided a city. It is a fantastic city. Kansas 
City has been so opening and welcoming to the opportunities 
that we have here, and I will not try to sell the city. I 
suspect someone else in this room could do that better than I, 
but the----
    Senator Stabenow. Well, if I might just interrupt.
    Mr. Hutchins. Sure.
    Senator Stabenow. First of all, next to Michigan, I love 
Kansas. So this is not about Kansas City.
    June 13th, I understand is when employees knew they were 
going to Kansas City. June 13th. That is a little over a month 
ago that they knew that, and so that is my concern.
    To just add to that and let you respond, I understand that 
Secretary Perdue had a conversation with Senator Van Hollen, 
which he said he would consider employees doing telework during 
the transition, and I am wondering if you will agree to let 
current employees work in their current location until the 
permanent facility is ready in Kansas City.
    By the way, there is still a lot of vacant space here in 
D.C., where they could work during that transition.
    Is that something that you are willing to do?
    Mr. Hutchins. Senator, two points. One is through the 
communication process with the employees, that every time we 
had indicated that once a city is identified, it would be a 30-
day decision period. So we stayed true to that. We actually 
provided 32, if you count.
    The second point, with regard to the telework and the rest 
of it, those are all demands and requests that have come from 
the union, and so those will be part of that negotiation 
process with the two agencies. That process actually begins 
tomorrow, is the first meeting between the union and with the 
agency.
    Senator Stabenow. So tomorrow is the first meeting with the 
union. So you have not yet met with them, but tomorrow is the 
first meeting?
    Mr. Hutchins. Well, I will not be meeting with them because 
their agreement, their process is with the actual agency.
    Senator Stabenow. I understand. Okay. Tomorrow is----
    Mr. Hutchins. By agreement of both sides, tomorrow is when 
that process begins.
    Senator Stabenow. Gotcha.
    Let me just quickly move through here timewise. I assume 
that you are as concerned as we are about unnecessary brain 
drain, with 63 percent of the people have said they are not 
going to be moving, and you basically gave 547 employees 30 
days to decide if they were going to move halfway across the 
country and take their families.
    Right now I understand there is enough space for 270 
employees in Kansas City.
    Given time, I want to ask one other important question, 
though. Recent press reports, including a new article published 
today, suggest that USDA has taken steps to suppress public 
release of the agency's work related to climate change.
    I am very proud of the fact that this Committee did a 
thoughtful bipartisan--it may have been the first thoughtful 
bipartisan--Senate hearing on climate change and how farmers 
can be a part of the solution going forward, which is 
absolutely critical.
    You addressed the downplaying of climate research in your 
testimony, and in a letter you sent to me yesterday, I 
appreciate the response. However, this morning's story suggests 
that senior Trump officials also held back an agency-wide 
Climate Science Plan slated for public release in late 2017, 
which we certainly could have benefited from.
    Let me just ask this. At this point, in terms of 
publicizing the work of agency researchers and so on, will you 
commit to provide this committee with all studies related to 
climate change that have involved USDA researchers and were 
published after January 21, 2017?
    Mr. Hutchins. Thank you, Senator.
    May I clarify and ask are you talking about the research 
studies?
    Senator Stabenow. I am talking about all the research 
studies that have been done, everything the USDA has done with 
public money, the universities and so on. We know there is a 
lot of work, really important work, that has been done, and we 
need to have that information.
    Mr. Hutchins. Yes, ma'am. That is all in the public domain.
    Just as an example, if you look at the ramp-up rate of 
climate research through NIFA, from 2016 there were 964 
reports, if you were to use Google Scholar, as an example. In 
2018, there were over a thousand, and we are on target or on 
pace in 2019 to have over 1,200.
    The climate work focus, primarily in my context on 
adaptation and mitigation, is expansive and robust, and we 
would be more than happy----
    Senator Stabenow. Does that include, though, the public 
release of the agency-wide Climate Science Plan that was 
referred to in the press today?
    Mr. Hutchins. The plan that was referred to in the press 
was an internal document in order for us to design and 
implement all aspects of this overall research program. It was 
not ever intended to be released to the public. No problem with 
it being released to the public because it really signals very 
clearly all the work that is being done, and all the work that 
is in that document is actually being done. That is our 
guidepost, and that is what we were using to develop our 
research program.
    Senator Stabenow. I look forward to receiving that. Thank 
you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Again, we have limited time today. We are 
like King Tut. We are pressed for time. We have votes at 11:30. 
We can hold it off until about 11:45. Questions for the record 
will be available, and the Chair will have to enforce the 5-
minute rule. Thank you.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman, and thank you for 
having the meeting.
    We have got a lot of concern, disagreement, but I think 
that the one thing that we can all agree on is that, as a 
nation, we must continue to invest in ag research and the 
future of agriculture.
    We can look at Arkansas, for example, and how far we have 
come in Arkansas. We can take rice, for example. From 1980 to 
2015, rice yield per acre increased by 62 percent. Over the 
same time, the water use associated with growing rice decreased 
by 52 percent. Soil loss decreased by 28 percent, and energy 
use decreased by 34 percent. None of this would have been 
possible without the innovation that has come about from the 
research and technology.
    Ag research will become even more important so that we can 
feed and clothe 9 billion people by 2050 on the same amount of 
arable land, essentially, that we have today.
    So I guess the question is, Dr. Hutchins, understanding the 
challenges that agriculture will have to overcome as the global 
population grows, what do you see as the most important 
research areas to focus on in both the short term and long 
term?
    Mr. Hutchins. Thank you, Senator, for the question.
    One of the things that we have done with the leadership 
team with REE is to identify one of the primary themes of 
research and focus and impact and influence that we really need 
to have for U.S. agriculture, and if I can, I will just briefly 
overview those.
    The first is sustainable intensification, and this would 
capture a lot of the things that you have just listed. It is 
the opportunity for us to really focus in a sincere and 
expansive way on soil health, an opportunity to focus on water 
conservation and water quality, and the opportunity really to 
take advantage of the tremendous digital revolution that is 
happening today within agriculture. All of that will allow 
farmers to not only be more productive but clearly more 
profitable as they are able to maximize the inputs that they 
put forth. So that is one of the key themes.
    By the way, as we do soil health and these other things, 
that will have very positive impacts on carbon sequestration 
and on overall greenhouse gas production.
    The second piece, if I could just do one more, the second 
piece is actually ag climate adaptation, and that is another 
key theme that we have where we are investing well over $100 
million of research just in that theme.
    Senator Boozman. We in Arkansas benefit from several 
research universities, which has been so, so important. One of 
these, the University of Arkansas at Pine Bluff, is an 1890's 
institution. UAPB is especially important to Arkansas' 
aquiculture industry, as they are a leader in aquiculture 
research.
    In the Farm Bill, there were several provisions regarding 
the 1890's institutions. Could you update us on the 
implementation of those provisions?
    Mr. Hutchins. Yes, sir. There were a number of them in the 
context of scholarship programs, for example, and the USDA 
hosted a tremendous event where they outlined and demonstrated 
with bipartisan support how that program was being stood up and 
put forth.
    The 1890 institutions overall are very highly supported by 
the Secretary as well as by the Department, and all of the 
provisions that are within that for both the individual ones as 
well as the others are being implemented with speed and rigor 
to ensure that the intent of this Committee and the intent of 
the 1890 institutions is fulfilled.
    Senator Boozman. Good. We appreciate that, and I think I 
can speak for the Committee that I think this is something that 
is very, very important that we do that with as much speed as 
possible. If you need any help in that regard, be sure and let 
us know.
    Thank you, Mr. Chairman. I yield back on time.
    Chairman Roberts. That helps.
    Senator Smith? Oh, pardon me. Senator Leahy?
    Senator Leahy. Thank you, Mr. Chairman. Good to see you.
    Chairman Roberts. Good to see you too.
    Senator Leahy. I try to keep an eye on you when I am not in 
the room.
    Chairman Roberts. Yes, I know that. I do not look at your 
picture. They have a hypnotizing effect on me.
    [Laughter.]
    Senator Leahy. I am concerned, Doctor, listening to some of 
the discussion here. I remember in a previous administration, 
the head of one of our environmental agencies kept 
reorganizing, reorganizing, and reorganizing so that they would 
never have to do anything, enforce the environmental laws. A 
Republican Senator called her on that, and that was Robert 
Stafford of Vermont.
    When I look at the Department's planned relocation of ERS 
and NIFA, I do not see where it has any merit or justification. 
I believe it really undermines the mission of both agencies. I 
am saying that with New England understatement.
    The move has already dealt a significant blow to the 
Department's scientific and economic research capacity, and 
many employees within these agencies will tell you, honestly, 
they feel this is the intent, to undermine the research 
capacity.
    Further, though, USDA failed to submit with its 2020 budget 
justification reporting all the costs and benefits for the move 
as well as a detailed analysis of any research benefit of a 
relocation. Those are required, and as Vice Chairman of the 
Appropriations Committee, I am well aware of this. They are 
required by Congress to the enacted fiscal year appropriations 
bill. That is a requirement which USDA totally ignored and 
violated.
    On the contrary, USDA requested $15.5 million for ERS 
relocation, even at the same time they are proposing a $26 
million cut in the agency. You know, it is Kafkaesque.
    The final thumb in the eye, the USDA sent the 
Appropriations Committee a reprogramming request just 6 days 
prior to publishing its intent in the Federal Register. That 
violates the 30 days that is required. It is like you guys do 
not even care what the law is.
    Congress is irrelevant, including the appropriators and the 
authorizers.
    So let me ask you. Insofar as you are ignoring 
congressional mandates, not following the law, Doctor, let me 
ask you this. Yes or no. Will you submit to the committees of 
jurisdiction all analyses related to relocation, including the 
full report by Ernst & Young on which USDA's cost-benefit 
analysis released last month was based? Yes or no.
    Mr. Hutchins. Yes, sir. We have released and published and 
made public the cost-benefit analysis prepared by Ernst & 
Young.
    Senator Leahy. What cost-benefit analysis was conducted 
prior to the Secretary's August 2018 announcement they would 
relocate the agencies?
    Mr. Hutchins. Senator, I did not join USDA until January of 
this year.
    Senator Leahy. I understand that.
    Mr. Hutchins. So I really do not know what was prepared for 
this.
    Senator Leahy. Okay. Will you--yes or no. Will you find 
what cost-benefit analysis was conducted prior and supply it to 
this Committee?
    Mr. Hutchins. I will inquire with the Secretary as to what 
is available.
    Senator Leahy. So you cannot give us an answer that you 
will?
    Mr. Hutchins. I do not know what is available, sir, but I 
will do all that I can to provide what is available.
    Senator Leahy. Well, was all that was provided, did you 
give us all that was provided, or did you give us just a 
summary?
    Mr. Hutchins. We provided all that exists for the cost----
    Senator Leahy. It was not a summary. It was all that 
exists?
    Mr. Hutchins. The summary captured all of the----
    Senator Leahy. Oh, so you gave a summary. You did not give 
all?
    Mr. Hutchins. No, sir. We provided it all, and in the 
summary, it referenced all the data and all the information 
that went into that. So it was the cost-benefit analysis. I 
would be happy to----
    Senator Leahy. So that is available? All that data is 
available to the Committee?
    Mr. Hutchins. Yes, sir.
    Senator Leahy. So we should be able to get the prior, prior 
to your time there also?
    Mr. Hutchins. I will inquire on your behalf.
    Senator Leahy. If Congress does not provide relocation 
funds in fiscal year or blocks funds from being used for such a 
relocation, will USDA follow the law, as enacted by Congress?
    Mr. Hutchins. USDA, from my standpoint, always follows the 
law and has deep respect for how it is created and how it is 
implemented.
    Senator Leahy. Well, then watch what we put because if we 
put that, you are going to have to.
    Lastly, EFNEP, that in the 2019-enacted appropriations 
bill, Congress called for a pilot expansion to provide 
evaluation and improved food resources. What has USDA done to 
implement these instructions in the fiscal year law, and would 
a land-grant institution with an established EFNEP program be 
well positioned to undertake the pilot?
    Mr. Hutchins. Yes, sir. The Agriculture appropriations 
report included language encouraging the Secretary to support a 
special pilot extension of EFNEP, and NIFA at present is 
assessing how to incorporate that into further effectiveness of 
that program.
    I might also add for that program, I had the honor to 
address that group and visit with that group earlier this year. 
Their mission and their focus is just tremendous, and so----
    Senator Leahy. I agree with you on that.
    Mr. Hutchins. What they do is something that we absolutely 
want to encourage, and we will make every effort from our 
standpoint to ensure that that pilot is successful.
    Senator Leahy. I can find you a good land-grant institution 
to do it.
    Thank you. Mr. Chairman, it is so nice to be here with you.
    Chairman Roberts. Well, thank you, sir. You are only about 
40 seconds overtime. This is of great concern to me because it 
did not give me enough time to congratulate you on your 
16,000th vote on the floor of the U.S. Senate. I will tell you 
in private how many times I voted with you.
    Senator Leahy. I have the list on a small card here.
    [Laughter.]
    Senator Leahy. On the Farm Bill, we have always voted 
together.
    Senator Stabenow. That is right.
    Chairman Roberts. That is correct, and that is the most 
important thing.
    Senator Braun?
    Senator Braun. Thank you, Mr. Chairman.
    Acknowledging the comments of Senator Stabenow and Leahy, I 
think those are valid, but I would also cite a few things. One, 
I am glad we are relocating to Kansas City. It is in the middle 
of the Farm Belt. I am a farmer, a tree farmer, involved with a 
lot of farmers, and I think it makes sense to be in the middle 
of where the bread basket is.
    When it comes to the talent pool, I have got to believe 
there is more of it in the universities that specialize in ag 
in that area as well.
    Then what is normally not talked about here would be can we 
lower the cost of operation in a place like that, and I am 
almost certain that it will be lower cost of doing business in 
Kansas City than D.C.
    I am looking forward for you to carry out this smooth 
transition, what you think can be done.
    I want to get to a question of what your agency is all 
about. African swine fever, foot and mouth disease, wheat stem 
rust, all examples of current threats to global agriculture 
that know no borders. I am sure there are others as well.
    Where are you at on diseases like that, and are we making 
headway, or are we being overwhelmed by more of them that seem 
to crop up every year?
    Mr. Hutchins. Thank you, Senator, for the question.
    The answer is that we are making headway on many, and as an 
entomologist, I am familiar with the whole concept of invasive 
species and those kinds of difficult topics.
    We are making headway on a number of those, but there will 
always be more. We are in a global travel situation, and so 
there is always a risk. APHIS does a fantastic job, but there 
is always a risk of more. We always have new challenges. We 
have them in all parts of the country.
    Growers every year face some sort of new challenge or 
outbreak. Much of that is stimulated by some sort of current 
weather pattern or what have you, but I can tell you with 
confidence that the Agricultural Research Service and NIFA 
both--and NIFA working more recently and locally through all of 
the great land grants in this country--are doing world-class 
science and making tremendous efforts. If you combine that with 
the great system we have of cooperative extension, it allows us 
to get that research. It allows us to get those advancements 
and those discoveries into the hands of our farmers quickly 
enough so that they can respond and minimize any losses from 
those kinds of pests.
    Senator Braun. So, as a tree farmer, does forestry, which I 
think in Indiana has almost twice the financial impact of row 
crops, which many people do not realize that--and I am sure 
that varies by State somewhat. Emerald ash borer, Japanese 
stiltgrass, tree of heaven, and most of that stuff has arisen 
in the last 10 to 15 years. Some of it, like Japanese bush 
honeysuckle, is so prevalent that most people do not even know 
it is not a native. Are we spending as much time and effort 
there when in many States, forestry has more impact than 
agriculture in the sense of row crops? Are we putting resources 
to that as well?
    Mr. Hutchins. Thank you, sir, for the question.
    Two things I would point out. One is the Forest Service, 
which is not part of this mission area, has its own R&D 
organization that is focused specifically on a lot of those 
diseases, insects, and so forth associated with forestry, but 
we work very closely together.
    So a lot of the basic biology, the basic information, and 
the control methods for pests like Emerald ash borer, which has 
cost me a number of ash trees myself, is collaborative.
    In fact, we use within our leadership team--we utilize the 
R&D leader for the Forest Service as part of our leadership 
team.
    So we are doing all we can to coordinate, and we do include 
the ecosystems, the forest ecosystems as part of our mandate 
and part of our challenge.
    Senator Braun. Thank you. Good luck in your transition to 
Kansas City.
    Mr. Hutchins. Thank you, sir.
    Senator Braun. I yield back.
    Chairman Roberts. Thank you, Senator.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you for being here, Dr. Hutchins.
    I have already expressed my concern, and Senator Stabenow 
focused on that in her questions about this relocation.
    Do you truly believe that you are not going to lose 
significant expertise in areas of research, agricultural 
research, Dr. Hutchins, with this move?
    Mr. Hutchins. Thank you for the question.
    Ma'am, I have never suggested that we would not lose 
expertise. I have been part of some major moves in the past, 
some large mergers and so forth, and they are never easy. There 
is always a large attrition with that, and there are good 
personal reasons for that. People are making choices.
    In this particular situation, every employee has been 
offered a job. I have never been through one of these where 
there was no workforce reduction in the context of mandated. So 
the opportunity is there.
    The numbers that came from this were not at all unexpected. 
We expect that for these kind of moves. We will be working 
desperately and deliberately to make sure, as Chairman Roberts 
has requested, that we do not drop the ball on the mission in 
the short term, but I want us to keep an eye on the long term. 
I want us to keep an eye on what the next version, with the 
expertise that we are retaining, how we build on that and how 
we take these agencies to the next level.
    The Secretary has committed to reinvest some of these 
considerable savings, $300 million nominally over the first 
least period, in order to allow us to grow these agencies, grow 
their impact, and grow their influence and expand the research 
capabilities.
    Senator Klobuchar. Just as we are out of time with climate 
change and climate science where this research is just 
important across the Government, and last month I wrote to 
Secretary Perdue with concerns about a news report that 
detailed the suppression of scientific studies conducted by the 
Agricultural Research Service related to the effects of climate 
change on agricultural production. This is having been seen in 
the Midwest the flooding that we are having and the broken 
levees and farmers that are no longer able to produce because 
their cropland is under water. We are having huge problems 
right now in Minnesota.
    Dr. Hutchins, can you elaborate on how the Department 
determines which type of research projects to publicize as 
opposed to just get them done?
    We have had an issue where a lot of this climate research 
seems to come out on late Friday afternoons, where maybe people 
will not notice it, not just out of USDA but out of other 
agencies, when I think we should be highlighting this as we 
look at solutions to what is an obvious crisis that is not 
happening in 100 years. It is happening now.
    Can you talk about how the Department determines which type 
of research projects to publicize?
    Mr. Hutchins. Thank you for the question.
    I can certainly provide you with an overview of that.
    First of all, with 5,000 publications coming just out of 
ARS alone across a number of topics, we need to look at which 
ones really will set the stage. We have over 450 research 
publications just in the climate area from just ARS, not to 
count the thousand that are sponsored by NIFA.
    So what we are looking for is a standard that says is there 
something new and novel here, is it most relevant to U.S. 
growers and U.S. agriculture, and is it something that we could 
ultimately translate and take to a point where we can reduce it 
to practice?
    I have returned a response to your letter. I do not know if 
you have seen that, but that particular publication that was in 
question was specifically focused on rice varieties in China 
and Japan. So it did not meet the standard relevant to U.S. 
rice growers. It focused on the concept of nutrition. There 
were 18 varieties evaluated. Two of those varieties clearly 
showed a reduction in vitamin B. Two of those varieties showed 
an increase in vitamin B, and 16 had no change.
    So we looked at that and said that it is not as conclusive 
with the type of promotion that was being suggested. It has 
nothing to do with climate change. It simply has to do with 
what we felt like the promotion of that did not meet the 
standard.
    There will be many other articles and many other studies 
that we will promote that meet those other standards.
    Senator Klobuchar. Okay. Because I just know there have 
been a number of these studies that have been kind of, in my 
mind, deep-sized, and it is not just at USDA. I think that, as 
a whole, the administration is not dealing with climate change, 
and we are losing time by not dealing with it.
    Questions were asked by--and I will not go on here--by 
Senator Braun about animal and plant diseases, and I worked to 
include several animal disease provisions in the 2018 Farm 
Bill. How are you working to better deliver research solutions 
that combat these disease threats?
    Mr. Hutchins. Well, one of the, I think, outcomes of a 
shifting climate or a warming climate is that there will be, I 
think, an additional increase, a range change, if you will, in 
terms of some of these diseases and so forth.
    One of the key areas of focus under this area I had 
mentioned previously of sustainable intensification is really a 
deep understanding and development of management tactics that 
are practical and useful, both short term and long term, in 
terms of dealing with these kinds of diseases. Some of them are 
an annual basis. Some of them, we would need to be able to deal 
with, with biological control and other kinds of things.
    Rest assured that it is a primary area of focus for both 
ARS and NIFA to give our growers the opportunity to manage 
their pests.
    Senator Klobuchar. Okay. Thank you very much. I will submit 
some more questions on the record.
    Mr. Hutchins. Thank you. Thank you.
    Chairman Roberts. Senator Grassley? Mr. Chairman?
    Senator Grassley. Thank you very much, Mr. Chairman, and 
welcome, Dr. Hutchins.
    Senator Braun brought up about diseases, et cetera. I would 
like to zero in on something that affects pork producers in 
Iowa, and they are concerned about the potential of African 
swine fever coming to the United States. Could you give me an 
update specifically on that disease, the Department's efforts 
to research methods to detect and treat African swine fever?
    If you were in another Department, Homeland Security, I 
would ask you to do what you are doing to keep it out of the 
Country.
    Mr. Hutchins. Thank you, Senator, for the question.
    The entry of that horrible disease is really under the 
purview of APHIS, and they are doing a fantastic job getting 
ahead of things in terms of making sure everything is in place. 
They have intercepted a number of shipments that should not be 
coming in because they could be potentially contaminated.
    To your point with regard to research, that is really a key 
priority for our organization to develop a vaccine in 
partnership with the private sector and make sure that our 
farmers never have to deal with what a large part of the world 
is dealing with today. So that is a primary focus.
    The completion and utilization of the NBAF facility, 
referenced earlier, is going to be front and center in our 
ability to do that work, which is presently being done, for 
example, in Plum Island and a number of areas.
    That is an excellent example of how one disease can 
radically change and alter a significant commodity such as our 
pork producers rely on. Over $200 billion are some of the 
estimates, depending on how long the outbreak would last.
    Senator Grassley. Okay. My next question is a provision in 
the Farm Bill calling for the development of Genome to Phenome 
research program at NIFA. The intent of the program is to 
better understand how plant and animal genomes interact with 
particular environments to control crop and animal growth in 
order to stabilize and increase our yields. Can you give an 
update on the Department's effort so far to implement the 
project?
    Mr. Hutchins. Senator, that theme, that area of Genome to 
Phenome, is a fantastic opportunity for us in a number of ways. 
You had mentioned plants and animals, but also, let us not 
forget microbes. That opportunity to use technologies in that 
way and to make that resolution is going to be, in some ways, 
at the core of the soil health approach with the soil 
microbiome.
    From our standpoint, what we are looking to do is be able 
to understand how that links together the ability to predict 
performance through phenome. It is critical to understanding 
how plants and animals and microbes will respond, for example, 
to climate.
    The current 2018 Farm Bill authorizes $40 million for the 
program. However, no discretionary funding has been 
appropriated to this effort. We would love to be able to stand 
that up and to incorporate that within our research programs, 
and I would also add, because I know there is tremendous 
capability in Iowa, to be able to use this as another example 
of how we partner with the private sector in order to make 
larger advances than we might be able to on our own.
    Senator Grassley. I will submit two questions for answer in 
writing and yield back my time.
    Chairman Roberts. Senator Casey?
    Senator Casey. Chairman Grassley just put pressure on all 
of us, so I will try to comply.
    Thank you, Mr. Chairman.
    I want to start with a Federal employee, the story of a 
Federal employee. Often in this town, Government workers are 
the subject of denigration, not commendation. We do not talk 
about their work enough, and so I want to try to give you one 
example and then use that as a predicate for my question for 
Dr. Hutchins.
    This is a story of Catherine Greene. She is senior 
agricultural economist at the Economic Research Service, which 
we know here in the hearing as ERS. She has been there for more 
than 30 years.
    In the 1980's, Catherine Greene initiated the first ERA 
outlook reporting on U.S. organic production. It seems like a 
long time ago.
    Since then, Catherine has initiated dozens of ERS and USDA 
projects, collaborating across every single agency of USDA to 
provide publicly available data, research, and information to 
U.S. producers interested in organic production and marketing.
    Catherine Greene is unable to relocate to Kansas City. 
Further, three of the young economists Catherine has trained 
for several years have already resigned rather than be 
relocated.
    Catherine Greene expects most of the institutional 
knowledge on organic agriculture will be lost when she is 
forced to retire.
    Sometimes we do not put a premium on or pay attention to 
the fact that in one agency of the Federal Government, you can 
have thousands of years of combined expertise and experience.
    So, Doctor, I have two questions on this subject. One is 
about attrition rates, and the other is about lost capacity. 
The first is, What is the expected attrition rate for employees 
working on organic agriculture in ERS? That is question one, 
and question two is, How do you anticipate the lost capacity of 
employees like Catherine Greene, who has spent 30 years 
developing expertise, to impact the agency's ability to provide 
accurate and timely data to organic producers? So if you could 
answer both questions.
    Mr. Hutchins. Thank you for the question.
    Two things. First, with regard to Catherine, we would love 
for Catherine to join us, if she would. We have offered roles 
to everyone in those two agencies, and we would be delighted to 
have her take that opportunity.
    With regard to the organic ag and the specific capabilities 
in that space, sir, I would have to get back with you on that. 
There are dozens of particular areas, and I do not have right 
in front of me today what the specifics are for that. I would 
certainly commit to do in that particular area, as you had 
requested.
    I am sorry. The third?
    Senator Casey. On the lost capacity, you will have to get 
back to us?
    Mr. Hutchins. Yes, for that specific area.
    Senator Casey. Okay.
    Mr. Hutchins. In an overall capacity standpoint, we are 
putting together a strategy that allows us to take advantage of 
a number of short-term and long-term aspects. We have a very 
aggressive hiring plan for vacancies in both of these.
    As I indicated in my opening remarks, six new ERS employees 
start to work in Kansas City on Monday.
    We also will be looking at several employees who cannot 
move for personal reasons, have approached us to see can we 
work after the date in some sort of contractual capacity or in 
some agreement like that.
    Universities have contacted us and asked us, ``We can help 
support you,'' and so forth.
    So a lot of groups at this point are starting to rally 
together to see how we can make sure we do this, and the 
commitment I have made to this Committee is that we will put 
all of those pieces together. We will not drop the ball on any 
of these, both of these agencies, and we will build them for 
the future.
    Senator Casey. The point I make is, look, I am just talking 
about organic production, one part of the responsibility of 
USDA, and we want to make sure that those organic producers, 
those organic farmers have accurate and timely data.
    It stands to reason that when you have a group of people 
that have accumulated all this experience that the likelihood, 
the high likelihood, is there is going to be a drop-off in 
terms of providing that information. So if you can get us that 
answer, we appreciate that.
    Mr. Hutchins. Yes, sir.
    Senator Casey. The second part of it was what I had asked 
first about the attrition rate for those working. What is the 
expected attrition rate for those working in organic 
agriculture at ERS?
    Mr. Hutchins. Again, I do not have the attrition rate for 
the organic agriculture aspect of ERS. I can get that back to 
you.
    Senator Casey. If you can get those in writing to us.
    Mr. Chairman, I will submit a second question for the 
record. Thank you.
    Chairman Roberts. I thank the distinguished Senator.
    Senator Hyde-Smith?
    Senator Hyde-Smith. Thank you, Mr. Chairman, and I commend 
you and our Ranking Member Stabenow for a job well done for the 
2018 Farm Bill. That was such a success. The research, in 
particular, was very good to me. Our commitment to the ag 
research is one of the reasons Under Secretary has remained a 
global leader, as we well know, in ag production.
    I am really proud of the important research conducted at 
the Agricultural Research Service, the ARS, in Stoneville, 
Mississippi, as well as at our public universities. I think you 
guys are doing a great job there.
    Dr. Hutchins, first of all, thank you for appearing before 
the Committee today. You have done a fantastic job.
    One of the things I want to ask about is the chronic 
wasting disease, CWD. It is a fatal disease that affects white-
tailed deer and several other members of the deer family, very 
important in Mississippi, and there is still a lot to learn 
about the cause, the spread, and the management control of CWD.
    It has made its way to Mississippi, and I am really 
concerned about the impact it could have because we have a 
billion-dollar industry there of deer hunting. A large area of 
our State has been flooded, more than 500,000 acres for more 
than 6 months, and it is confining the deer to a very small 
area in the levees, which obviously would be facilitating the 
spread of chronic waste disease.
    So a provision of the 2018 Farm Bill lists CWD as a high-
priority research and extension initiative and for very good 
reason.
    The land-grant universities in the Southeast, such as 
Mississippi State University, which you are quite familiar 
with, we have established white-tailed deer research programs, 
colleges of veterinary medicine, and technical and scientific 
expertise relevant to CWD.
    We are in pretty good position there, but as you proceed 
with the implementation of the 2018 Farm Bill, will you commit 
to ensuring that CWD is, indeed, treated as a high-priority 
research and extension initiative, and would you work 
continuous, as you have done such a great job, with land-grant 
universities in the Southeast that are well positioned to join 
the efforts and combat in many research programs on CWD?
    Mr. Hutchins. Thank you, Senator, for the question.
    Great to see you. The last time I was at the Committee, I 
think you were in the process of winning your election, so nice 
to see you and nice to see someone from Mississippi State. That 
was a great place to go.
    To your question, what I can tell you is that chronic 
wasting disease was added to the high-priority research and 
extensions initiatives in the Farm Bill. There is no funding 
there, but we are gearing up to make sure that we support all 
of these efforts.
    The issues with chronic wasting disease are very 
challenging technically, but we can overcome those. NIFA has 
funded a study at Iowa State University to attempt to find a 
skin test for the disease. The incubation period for this 
disease is two to four year. That makes it particularly 
challenging from a technical standpoint, but if we develop a 
rapid, consistent testing regime, we think that we can have a 
significant impact.
    ARS is currently investigating the pathobiology, genetics, 
and detection of the transmissible aspects of it. It is a 
spongiform encephalopathy, TSE, that affects not just deer but 
elk and moose. So it is a very significant disease and 
challenge for us that we want to contribute and we will 
contribute to the solution and partnership with the land 
grants.
    Senator Hyde-Smith. Fantastic. Thank you very much, and Go 
Dawgs.
    Mr. Hutchins. That is right. Hail State.
    Chairman Roberts. I thank the Senator.
    Senator Hoeven, with the admonition, of course, that we 
have started the vote. Not to pressure you.
    Senator Hoeven. Thanks, Mr. Chairman.
    I will try to keep it moving along here.
    I do want to ask. North Dakota is the Nation's top producer 
of canola, and so we included some--in our NIFA funding, we 
want to see research for canola. So does NIFA intend to make 
canola eligible for the program, and can you share a timeline 
for when that action will be completed?
    Mr. Hutchins. Senator, I am aware of a Hard Red Spring and 
Durham Wheat Laboratory involvement within North Dakota. I 
would need to get back to you with the specifics of that 
particular question, and I would be happy to do that ASAP.
    Senator Hoeven. Good, because we are going to want to work 
with you to make sure that that research is included as part of 
NIFA.
    Mr. Hutchins. Absolutely.
    Senator Hoeven. So I will look forward to working with you 
on that.
    Also, how about in the sugar beet area? We provided a 
million-dollar increase in sugar beet research funding. Is that 
one that you can comment on, or should we follow up on that one 
later too?
    Mr. Hutchins. Well, I will to follow up with some details, 
but I can assure you that sugar beet research in a number of 
areas is a high priority for us. We are actively engaged in 
that within the ARS as well as NIFA.
    Senator Hoeven. Good. How about chronic wasting disease?
    Mr. Hutchins. Yes, sir. We just spoke about that in 
Mississippi, and I know it is much broader than Mississippi. 
Certainly, it is identified as a priority, and we are working 
in both intramural and extramural research efforts and 
partnering to address that. It is a challenging--it is a real 
challenging disease.
    Senator Hoeven. How about the U.S. Wheat and Barley Scab 
Initiative?
    Mr. Hutchins. The U.S. Wheat and Barley Scab Initiative is 
on track, and the ARS researchers in Fargo have transferred a 
number of major genes for that resistance for common wheat and 
to durum, using multiple backcrosses in selection. So I have 
got a bit of an update on that, but as with the others, I would 
be happy to give you as much detail from our subject-matter 
experts as you desire.
    Senator Hoeven. Good. We will look forward to working with 
you on those initiatives and others. I personally am a huge fan 
of ag research. I think it is unbelievable what we have done, 
both through ARS and NIFA, and we are very committed to funding 
that ag research and working with you on these and other 
initiatives.
    Mr. Hutchins. Thank you, sir, and I would just add to that. 
We are in a renaissance period right now with ag research and 
in agriculture more broadly. So we look forward to being part 
of the next era to make sure that U.S. agriculture is the most 
competitive.
    Senator Hoeven. Thank you.
    Now out of deference to our outstanding Chairman and the 
fact that we have a vote on the floor, I will yield the rest of 
my time.
    Chairman Roberts. Thank you very much.
    That will conclude our hearing today. Thank you to our 
witness for taking time to discuss agriculture research, the 
2018 Farm Bill, and relocation.
    To my fellow Members, we ask that any additional questions 
you may have for the record be submitted to the Committee Clerk 
in 5 business days from today or by 5 o'clock p.m., next 
Thursday, as of Thursday, July the 25th.
    I want to at least emphasize one other point. Employees had 
until July 15 to make a decision. Employees do have until 
September 30 to report to their new location. I hope they take 
advantage of that. There is a huge welcoming committee from 
both Missouri and Kansas to any employee that would visit.
    Thank you.
    [Whereupon, at 11:38 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             July 18, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 18, 2019

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                         QUESTIONS AND ANSWERS

                             July 18, 2019

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 <all>
</pre></body></html>
